                                 CLOSEOUT FOR M92090041

        This case was brought to the attention of OIG bya -                             program




                                                              hdrew them from consideration
                                                                In his phone conversation to the
                                                               rporated some of the ideas in the
 manuscripts into his grant proposal.

        When contacted by OIG on November 12, 1992, the informant stated that .he was not
 making an accusation against the subject, but that he felt the information in the proposal
 overlapped the data presented in his own manuscripts. He said that the information had not
 necessarily been lifted. The informant sent the three manuscripts to OIG on November 18,
 1992.

         OIG compared the three manuscripts by the informant to the subject's proposal. Both




                                     -
 overlap between the manuscripts and the proposal is quite limited.

         To determine whether the subject had independent sources for this overlapping
 information, OIG examined two published papers cited in the subject's proposal. These papers,
 which predate the manusc
 research carried out by him
 at -and        is the subject'
 that the Co-PI'S papers presented almost all of the overlapping data in the proposal. The dara
 that could not be accounted for was very trivial, may have been described in the text of one
 paper of the Co-PI'S which was                               or could come from preliminary
 unpublished experiments. Moreover, the data in the Co-PI'S papers forms a reasonable basis
 for the related experiments proposed in the subject's grant application.

          The Co-PI'S laboratory appears to have begun research on th
                                                 he same time a s the informant's research group.
                                                   they jointly published -aper
  covering some of the material in the three manuscripts. This paper by the informant and his
-sociate            came out in m a t about the same time tbat the Co-PI'S papers came out.
  Although citation of the paper by the informant and hi-ssociate                 in the subject's
  proposal would have been appropriate, the subject and Co-PI clearly had their own basis for the
   data presented and experiments proposed. There is no reason to assume that they relied upon
   the manuscripts by the informant as the basis for their proposal.
        Therefore, OIG determined that there was not enough evidence to warrant pursuing this
allegation further. This case is closed without a finding of misconduct.




Concurrence:




cc:    Counsel to the Inspector General
       Inspector General
